TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




               Legal and Internal Guidelines Were Not Always
         Followed When Conducting Seizures of Taxpayers’ Property

                                           August 2004

                             Reference Number: 2004-30-149




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    August 25, 2004


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION



      FROM:                         (for) Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report – Legal and Internal Guidelines Were Not
                                    Always Followed When Conducting Seizures of Taxpayers’
                                    Property (Audit # 200330025)


      This report presents the results of our mandatory review of the Internal Revenue
      Services’ (IRS) seizures of taxpayer’s property. The overall objective of this review was
      to determine whether seizures conducted by the IRS complied with legal provisions set
      forth in the Internal Revenue Code (I.R.C.) Sections 6330 through 6344 (1994 &
      Supp. IV 1998)1 and with the IRS’ own internal procedures. This audit focused on
      determining if the IRS conducted seizures in compliance with these legal and internal
      procedures. It was not intended to determine if the decision to seize was appropriate.
      In summary, we found the IRS did not always comply with legal provisions and internal
      procedures when conducting seizures. Our review of a random sample of 50 of 380
      seizures conducted between July 1, 2002, and June 30, 2003, identified 38 instances in
      22 of the seizures in which the IRS did not fully comply with the I.R.C. While we did not
      identify any instances where the taxpayers were adversely affected, not following legal
      and internal guidelines could result in abuses of taxpayers’ rights.
      In addition, we found that internal guidelines for conducting seizures can be improved to
      help prevent I.R.C. violations. While the IRS has established procedures to follow in
      obtaining approval prior to conducting a seizure, the Internal Revenue Manual (IRM)
      does not provide specific time periods for how soon a seizure should be conducted after

      1
       I.R.C., as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the Job Creation and Worker
      Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21; the Victims of Terrorism Tax Relief Act of 2001, Pub. L.
      No. 107-134, 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554,
      114 Stat. 2763.
                                             4

Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
  Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                  Taxpayers’ Property




                                                  Table of Contents


Background ................................................................................................ Page 1
The Internal Revenue Service Did Not Always Comply With Legal
Provisions and Internal Procedures When Conducting Seizures ............... Page 2
         Recommendations 1 through 3:.....................................................Page 10
         Recommendations 4 and 5: ..........................................................Page 11

Internal Guidelines for Conducting Seizures Can Be Improved to
Help Prevent Internal Revenue Code Violations ....................................... Page 12
         Recommendation 6: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 14
Appendix II – Major Contributors to This Report ....................................... Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Outcome Measures............................................................ Page 17
Appendix V – Synopsis of Selected Legal Provisions for Conducting
Seizures .................................................................................................... Page 18
Appendix VI – Listing of Prior Reports on Compliance With Seizure
Procedures................................................................................................ Page 21
Appendix VII – List of Forms Required to Be Provided to the Taxpayer
for Sales of Seized Property and Number of Instances Not Provided ....... Page 22
Appendix VIII – Management’s Response to the Draft Report .................. Page 23
  Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                  Taxpayers’ Property

                                 The collection of unpaid tax by the Internal Revenue
Background
                                 Service (IRS) generally begins with letters to the taxpayer
                                 followed by telephone calls and personal contacts by an IRS
                                 employee. The employees who make personal contact are
                                 referred to as revenue officers. They consider the
                                 taxpayer’s ability to pay the tax and discuss alternatives,
                                 such as installment payment agreements or offers in
                                 compromise.1 If these actions have been taken and the
                                 taxpayer has not fully paid the tax due, the revenue officer
                                 has the authority to take the taxpayer’s funds or property for
                                 the payment of tax. Taking a taxpayer’s property for unpaid
                                 tax is commonly referred to as a “seizure.”
                                 To ensure taxpayers’ rights are protected, the IRS
                                 Restructuring and Reform Act of 1998 (RRA 98)2 amended
                                 the seizure provisions in the Internal Revenue Code (I.R.C.)
                                 Sections (§§) 6330 through 6344 (1994 & Supp. IV 1998).3
                                 These provisions and the IRS’ internal procedures are very
                                 specific regarding how a seizure should be performed. See
                                 Appendix V for a synopsis of the applicable legal
                                 provisions.
                                 The Treasury Inspector General for Tax
                                 Administration (TIGTA) is required under I.R.C.
                                 § 7803(d)(1)(A)(iv)(Supp. IV 1998) to annually evaluate the
                                 IRS’ compliance with these legal seizure provisions to
                                 ensure taxpayers’ rights were not violated while conducting
                                 seizure actions. The TIGTA has evaluated the IRS’
                                 compliance with the seizure provisions since Fiscal
                                 Year (FY) 1999. See Appendix VI for a list of all prior
                                 audit reports issued on the IRS’ compliance with seizure
                                 procedures.



                                 1
                                   An offer in compromise is a proposal by a taxpayer to settle unpaid
                                 accounts for less than the full amount of the balance due.
                                 2
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C.,
                                 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                 3
                                   I.R.C., as amended by the Trade Act of 2002, Pub. L. No. 107-210,
                                 116 Stat. 933; the Job Creation and Worker Assistance Act of 2002,
                                 Pub. L. No. 107-147, 116 Stat. 21; the Victims of Terrorism Tax Relief
                                 Act of 2001, Pub. L. No. 107-134, 115 Stat. 2427 (2002); and the
                                 Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554,
                                 114 Stat. 2763.
                                                                                                Page 1
    Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                    Taxpayers’ Property

                                   Since the enactment of the RRA 98, the number of seizures
                                   by the IRS has significantly decreased. Figure 1 illustrates
                                   the number of seizures for the past 7 fiscal years:
                                                Figure 1: IRS Seizures by Fiscal Year


                                       12,000
                                                10,090


                                        8,000


                                        4,000            2,307

                                                                 161   74    234    296   399
                                          -
                                                 1997 1998 1999 2000 2001 2002 2003

                                    Source: IRS Oversight Board Annual Report 2001 for
                                    FYs 1997–1999 and the IRS 2003 Databook for
                                    FYs 2000–2003.

                                   We conducted this audit in the IRS’ Small Business/Self-
                                   Employed (SB/SE) Division Headquarters in New
                                   Carrollton, Maryland, during the period August 2003
                                   through April 2004. This audit focused on determining
                                   whether the IRS conducted seizures in compliance with
                                   legal provisions and internal procedures. It was not
                                   intended to determine if the decision to seize was
                                   appropriate. The audit was conducted in accordance with
                                   Government Auditing Standards. Detailed information on
                                   our audit objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   Our review of a random sample of 50 of 380 seizures
The Internal Revenue Service Did
                                   conducted between July 1, 2002, and June 30, 2003,
Not Always Comply With Legal
                                   determined the IRS did not comply with all legal and
Provisions and Internal
                                   internal guidelines when conducting seizures. In 22 of the
Procedures When Conducting
                                   50 seizures reviewed, we identified 38 instances in which
Seizures
                                   the IRS did not fully comply with the I.R.C. While we did
                                   not identify any instances where the taxpayers were
                                   adversely affected, not following the legal and internal
                                   guidelines could result in abuses of taxpayers’ rights.


                                                                                           Page 2
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                Taxpayers’ Property

                               the seizure back to the taxpayer, rather than a sale of the
                               seized property.
                               The order of how proceeds are to be applied is not affected
                               by how the seizure is closed – either by sale or release.
                               Both the I.R.C. and the IRM state the order for how the
                               proceeds are applied pertain to any money realized under
                               levy and sale proceedings, whether by seizure or by sale of
                               seized property.

                               Recommendations

                               The Director, Payment Compliance, SB/SE Division,
                               should:
                               1. Reemphasize the requirement that a Letter 1058 needs to
                                  be issued for each period on the Form 668-B before a
                                  seizure is conducted, revise the IRM section on seizures
                                  and sales to include the statement that IDRS notices are
                                  not considered notices of a right to a hearing, and
                                  reemphasize that position to the field.
                               Management’s response: SB/SE Division management
                               advised they have issued a memorandum containing the
                               appropriate guidance and the IRM is being revised.
                               2. Ensure Form 2433 is provided to the taxpayer at the
                                  time of seizure and reemphasize to revenue officers that
                                  they are to document the case file as to how the taxpayer
                                  received the Form 2433.
                               Management’s response: SB/SE Division management
                               advised they have issued a memorandum containing the
                               appropriate guidance.
                               3. Ensure Technical Support functions use and follow the
                                  Post-Seizure Review Checklist when conducting the
                                  post reviews of the seizure files and document the dates
                                  various actions were completed, specifically when the
                                  required sales documents and application of sales
                                  proceeds and balance due letters were mailed to the
                                  taxpayers. Also, the Director should ensure the
                                  Post-Seizure Review Checklists are maintained in the
                                  seizure files.


                                                                                      Page 10
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                Taxpayers’ Property

                               Management’s response: SB/SE Division management
                               advised they have issued a memorandum containing the
                               appropriate guidance. They also have issued an Interim
                               Guidance memorandum that established the Post-Seizure
                               Review Checklist as the only acceptable post-seizure review
                               form that can be used by Technical Services. To ensure that
                               the checklists are updated and maintained in the seizure
                               files, a review of the Post-Seizure Review Checklists will be
                               included in the Operation Review for Technical Services.
                               4. Review the procedures established for posting of seizure
                                  and sales expenses and proceeds and coordinate with the
                                  Accounting Control/Services Operation to ensure the
                                  procedures are being properly followed.
                               Management’s response: SB/SE Division management
                               advised that there will be a teleconference between the four
                               national Revenue Accounting Control System10 (RACS)
                               Coordinators and the analyst responsible for the RACS
                               program to review the current procedures and emphasize the
                               importance of accurate accounting on seizure and sale cases.
                               5. Review the seizures in our universe of cases that we did
                                  not review to determine if all required forms relating to
                                  a sale of seized property and the application of proceeds
                                  letters were sent to the taxpayers. In cases where the
                                  required forms and letters were not issued, the Director
                                  should take the appropriate action to issue them.
                               Management’s response: SB/SE Division management
                               advised that Technical Services will conduct a review of all
                               seizures conducted in Fiscal Year 2003 where sales were
                               held to determine if all applicable documents from the
                               permanent record have been provided to the taxpayer. They
                               will update the Post-Seizure Review Checklists and will
                               send all required documents to the taxpayer on any case
                               where the documents were not previously provided.




                               10
                                 The RACS is a fully automated system used to provide accounting
                               and management control for all revenue accounting transactions.
                                                                                          Page 11
     Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                     Taxpayers’ Property

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures conducted by the Internal
Revenue Service (IRS) complied with legal provisions set forth in the Internal Revenue Code
(I.R.C.) Sections 6330 through 6344 (1994 & Supp. IV 1998)1 and with the IRS’ own internal
procedures.2
To accomplish our objective, we:
I.       Interviewed the Small Business/Self-Employed Division Seizure Program Analyst and
         obtained documentation of national guidance provided to employees; identified IRS
         systems, policies, and practices for ensuring compliance with legal provisions and
         internal procedures related to seizures; and determined how these tools were used.
II.      Reviewed a random sample of 50 seizures from the 380 seizures conducted by the IRS
         from July 1, 2002, through June 30, 2003. The seizures were reviewed to determine
         compliance with legal provisions and internal procedures and whether the proceeds and
         applicable expenses of the seizures and sales were properly recorded to taxpayers’
         accounts on the IRS’ main computer system. A random sample was used to ensure each
         of the 380 seizures in our sample period had an equal chance of being selected.




1
  I.R.C., as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the Job Creation and Worker
Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21; the Victims of Terrorism Tax Relief Act of 2001, Pub. L.
No. 107-134, 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554,
114 Stat. 2763.
2
  This audit focused on determining if the IRS conducted seizures in compliance with legal and internal procedures.
It was not intended to determine if the decision to seize was appropriate.
                                                                                                          Page 14
 Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                 Taxpayers’ Property

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
James D. Dorrell, Lead Auditor
Julian E. O’Neal, Senior Auditor
Dale E. Schulz, Senior Auditor
Janis Zuika, Auditor




                                                                                       Page 15
 Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                 Taxpayers’ Property

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Payment Compliance, Small Business/Self-Employed Division SE:S:C:CP:PC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 16
    Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                    Taxpayers’ Property

                                                                                                      Appendix V


             Synopsis of Selected Legal Provisions for Conducting Seizures

Internal Revenue Code (I.R.C.) Section (§) 6330 (Supp. IV 1998)1 requires the Internal
Revenue Service (IRS) to issue the taxpayer a notice of his or her right to a hearing prior to
seizure action. The notice must be: (1) given in person, (2) left at the taxpayer’s home or
business, or (3) mailed certified-return receipt requested, not less than 30 days before the day of
the seizure. The notice must explain in simple terms: (1) the amount owed, (2) the right to
request a hearing during the 30-day period, and (3) the proposed action by the IRS and the
taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except where the underlying tax liability is not
at issue in the appeal and the court determines the IRS has shown good cause not to suspend the
seizure. No limitation period may expire before 90 days after a final determination. These
procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 (1994 & Supp. IV 1998) authorizes the IRS to seize a taxpayer’s property for
unpaid tax after sending the taxpayer a 30-day notice of intent to levy.2 This section also
prohibits seizure: (1) during a pending suit for the refund of any payment of a divisible tax,
(2) before a thorough investigation of the status of any property subject to seizure, or (3) while
either an offer in compromise3 or an installment agreement is being evaluated and, if necessary,
30 additional days for the taxpayer to appeal the rejection of the offer in compromise or
installment agreement.
I.R.C. § 6332 (1994 & Supp. IV 1998) requires a third party in possession of property subject to
seizure to surrender such property when a levy notice is received. It contains sanctions against
third parties that do not surrender such property when a levy notice is received.
I.R.C. § 6333 (1994 & Supp. IV 1998) requires a third party with control of books or records
containing evidence or statements relating to property subject to seizure to exhibit such books or
records to the IRS when a levy notice is received.



1
  I.R.C., as amended by the Trade Act of 2002, Pub. L. No. 107-210, 116 Stat. 933; the Job Creation and Worker
Assistance Act of 2002, Pub. L. No. 107-147, 116 Stat. 21; the Victims of Terrorism Tax Relief Act of 2001, Pub. L.
No. 107-134, 115 Stat. 2427 (2002); and the Community Renewal Tax Relief Act of 2000, Pub. L. No. 106-554,
114 Stat. 2763.
2
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance due accounts that are not being voluntarily paid.
3
  An offer in compromise is a proposal by a taxpayer to settle unpaid accounts for less than the full amount of the
balance due.
                                                                                                             Page 18
 Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                 Taxpayers’ Property

I.R.C. § 6334 (1994 & Supp. IV 1998) enumerates property exempt from seizure. The
exemption amounts are adjusted each year and include $6,250 in fuel, provisions, furniture, and
personal effects and $3,125 in books and tools necessary for business purposes for the Calendar
Year 2002. Also, any primary residence, not just the taxpayer’s, is exempt from seizure when
the amount owed is $5,000 or less. Seizure of the taxpayer’s principal residence is allowed only
with the approval of a United States (U.S.) District Court judge or magistrate. Property used in
an individual taxpayer’s business is exempt except with written approval of the Area Director,
and the seizure may only be approved if other assets are not sufficient to pay the liability.
I.R.C. § 6335 (1994 & Supp. IV 1998) contains procedures for the sale of seized property.
Notice must be given to the taxpayer; the property must be advertised in the county newspaper or
posted at the nearest post office; and such notices shall specify the time, place, manner, and
conditions of sale. It requires the property be sold not less than 10 days or more than 40 days
from the time of giving public notice. Finally, this section expressly prohibits selling seized
property for less than the minimum bid.
I.R.C. § 6336 (Supp. IV 1998) contains procedures for the accelerated disposition of perishable
property. This is property such as fresh food products or any property that requires prohibitive
expenses to maintain during the normal sale time period. The property may either be sold
quickly or returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 (1994 & Supp. IV 1998) allows the taxpayer to redeem seized property prior to
sale by paying the amount due plus the expenses of the seizure. It also allows a taxpayer to
redeem real property within 180 days of the sale by paying the successful bidder the purchase
price plus 20 percent per annum interest.
I.R.C. § 6338 (1994 & Supp. IV 1998) requires the IRS to give purchasers of seized property a
certificate of sale upon full payment of the purchase price. This includes issuing a deed to real
property after expiration of the 180-day period required by I.R.C. § 6337. The deed is
exchanged for the certificate of sale issued at the time of the sale.
I.R.C. § 6339 (1994 & Supp. IV 1998) provides the legal effect of the certificate of sale for
personal property and the transfer deed for real property.
I.R.C. § 6340 (1994 & Supp. IV 1998) requires each Area Office to keep a record of all sales of
seized property. This record must include the tax for which such sale was made, the dates of
seizure and sale, the name of the party assessed, all proceedings in making such sale, the amount
of expenses, the names of the purchasers, and the date of the deed or certificate of sale of
personal property. The taxpayer will be furnished: (1) the information above except the
purchasers’ names, (2) the amount of such sale applied to the taxpayer’s liability, and (3) the
remaining balance of such liability.
I.R.C. § 6341 (1994 & Supp. IV 1998) allows expenses for all seizure and sale cases.



                                                                                           Page 19
    Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                    Taxpayers’ Property

I.R.C. § 6342 (1994 & Supp. IV 1998) enumerates how the proceeds of a seizure and sale are to
be applied to a taxpayer’s account. Proceeds are applied first to the expenses of the seizure and
sale proceedings. Then, any remainder is applied to the taxpayer’s liability.
I.R.C. § 6343 (1994 & Supp. IV 1998) outlines various conditions under which a seizure may
be released and property returned to the taxpayer. These conditions include full payment of the
liability, determination of a wrongful seizure, financial hardship, etc. This section allows a
consent agreement between the U.S. and either the taxpayer or the National Taxpayer Advocate
when the return of seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 (1994 & Supp. IV 1998) contains cross-references for I.R.C. §§ 6330 through
6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 19984) § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers from
participating in the sales of seized assets.




4
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                                                                           Page 20
 Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                 Taxpayers’ Property

                                                                               Appendix VI


          Listing of Prior Reports on Compliance With Seizure Procedures

The Internal Revenue Service Needs to Improve Compliance with Legal and Internal Guidelines
When Taking Taxpayers’ Property for Unpaid Taxes (Reference Number 199910072, dated
September 1999).
The Internal Revenue Service Has Significantly Improved Compliance With Legal and Internal
Guidelines When Seizing Taxpayers’ Property (Reference Number 2000-10-114, dated
August 2000).
Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
When Seizing Property for Payment of Tax (Reference Number 2001-10-061, dated May 2001).
The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is Needed
to Fully Implement the Uniform Asset Disposal Mechanism (Reference Number 2002-10-005,
dated November 2001).
The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
Property (Reference Number 2002-40-155, dated August 2002).
Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures (Reference
Number 2003-40-115, dated May 2003).




                                                                                      Page 21
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                Taxpayers’ Property

                                                                     Appendix VIII

                 Management’s Response to the Draft Report




                                                                            Page 23
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                Taxpayers’ Property




                                                                            Page 25
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                Taxpayers’ Property




                                                                            Page 26
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
                                Taxpayers’ Property




                                                                            Page 27
